                                                                                           II
                                             NATIONAL SCIENCE FOUNDATION
                                              OFFICE OF INSPECTOR GENERAL                  11
                                                OFFICE OF INVESTIGATIONS                    1




                                          CLOSEOUT MEMORANDUM                               11




Case Number: I02050015                                                                 Page 1 of 1



      On 14 May 2002, OIG received a call from a program director stating that the program received a
      call from Associate Dean of Research informing NSF that there had been misuse of funds
      through false travel reimbursements by the principal investigator (PI) on an NSF grant.
                                                                                                 ll

      The University conducted an internal audit. The audit revealed that two faculty members,
      misappropriated            in funds across four federal grants (of that sum $     was YSF
      grant funds). [NOTE: Only one of the faculty members was a NSF grantee] The faculty
      members were presented with the findings and given an opportunity to respond to the audit
      report. The faculty members eventually admitted claiming excess expenses. One of the faculty
      members immediately resigned and left the university. The NSF grantee was terminated but was
                                                                                              I
      subsequently permitted to resign.

      The University promptly returned the misappropriated funds to the grant accounts and was later
      reimbursed by faculty members.                                                                  I




      Accordingly, this case is closed.
                                                                                                          1/




                         Agent                 Attorney               Supervisor                                AIGI

                                                                                                               /I
  Sign 1 date

                                                                                                               ?IG-02-2
